1

IN THE SUPREME COURT OF THE UNITED STATES

No.
Veronica M. Johnson
Petitioner
v.
Rock Solid Janitorial, Inc., et al
Respondents,

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF VIRGINIA

DECLARATION OF WORD COUNTCOMPLIANCE FOR
PETITION FOR A WRIT OF CERTIORARI

As required by Supreme Court Rule 33.1 (h), I certify that the petition for a
writ of certiorari contains 2709 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the forgoing is true and correct.

Executed on May 19. 2020
V
Veronica M. JoljjUjBon,
Petitioner, pro se

l

